<html>
<title> - REGULATORY BARRIERS TO AMERICAN INDIAN JOB CREATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
          REGULATORY BARRIERS TO AMERICAN INDIAN JOB CREATION

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                           PROCUREMENT REFORM

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 7, 2011

                               __________

                           Serial No. 112-32

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
68-049                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f097809fb09385838498959c80de939f9dde">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Technology, Information Policy, Intergovernmental 
                    Relations and Procurement Reform

                   JAMES LANKFORD, Oklahoma, Chairman
MIKE KELLY, Pennsylvania, Vice       GERALD E. CONNOLLY, Virginia, 
    Chairman                             Ranking Minority Member
JASON CHAFFETZ, Utah                 CHRISTOPHER S. MURPHY, Connecticut
TIM WALBERG, Michigan                STEPHEN F. LYNCH, Massachusetts
RAUL R. LABRADOR, Idaho              JACKIE SPEIER, California
PATRICK MEEHAN, Pennsylvania
BLAKE FARENTHOLD, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 7, 2011....................................     1
Statement of:
    Kendall, Mary L., Acting Inspector General, Department of the 
      Interior; Anu K. Mittal, Director, Natural Resources and 
      Environment Team, U.S. Government Accountability Office; 
      Rodney M. Bordeaux, president, Rosebud Sioux Tribe, given 
      by Patricia Douville, council member, Rosebud Sioux Tribe; 
      and Ron Allen, chairman, Jamestown S'Klallam Tribe.........     4
        Allen, Ron...............................................    44
        Bordeaux, Rodney M.......................................    35
        Kendall, Mary L..........................................     4
        Mittal, Anu K............................................    13
Letters, statements, etc., submitted for the record by:
    Allen, Ron, chairman, Jamestown S'Klallam Tribe, prepared 
      statement of...............................................    46
    Bordeaux, Rodney M., president, Rosebud Sioux Tribe, prepared 
      statement of...............................................    38
    Kendall, Mary L., Acting Inspector General, Department of the 
      Interior, prepared statement of............................     7
    Mittal, Anu K., Director, Natural Resources and Environment 
      Team, U.S. Government Accountability Office, prepared 
      statement of...............................................    15


          REGULATORY BARRIERS TO AMERICAN INDIAN JOB CREATION

                              ----------                              


                        THURSDAY, APRIL 7, 2011

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and Procurement Reform,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:40 p.m., in 
room 2154, Rayburn House Office Building, Hon. James Lankford 
(chairman of the subcommittee) presiding.
    Present: Representatives Connolly, Lankford, and Labrador.
    Also present: Representative Issa.
    Staff present: Ali Ahmad, deputy press secretary; Molly 
Boyl, parliamentarian; Joseph A. Brazauskas, counsel; Sharon 
Casey, senior assistant clerk; Christopher Hixon, deputy chief 
counsel, oversight; Justin LoFranco, press assistant; Kristina 
M. Moore, senior counsel; Adam Miles, minority professional 
staff member; Leah Perry, minority chief investigative counsel; 
and Brian Quinn, minority counsel.
    Mr. Lankford. The committee will come to order.
    We do apologize for running a little bit behind. As you 
know well, we have some votes being called; and we are very 
confident to have to be able to take a short recess here in a 
moment and do some other votes.
    Let me do a quick statement here, the oversight committee 
mission statement. This is Regulatory Barriers to Indian 
American Job Creation. So I want to read this statement 
quickly.
    We exist to secure two fundamental principals. First, 
Americans have a right to know that the money Washington takes 
from them is well spent; and, second, Americans deserve an 
efficient, effective government that works for them.
    Our duty in the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to the taxpayers, because taxpayers 
have a right to know what they get from their government. We 
will work tirelessly in partnership with citizen watchdogs to 
deliver the facts to the American people and bring genuine 
reform to the Federal bureaucracy. This is the mission of the 
Oversight and Government Reform Committee.
    I will make a quick opening statement, just to be able to 
set up what we are trying to accomplish today.
    The relationship between American Indians and the Federal 
Government is a relationship that is entirely unique in 
America. For over a century, Federal programs have worked hand 
in hand with tribal leaders to encourage economic development 
among Native American populations. A principal part of this 
hearing is to listen and to learn how and why unemployment 
remains high in Native American populations and how the Federal 
Government affects economic development among the tribes.
    The Bureau of Indian Affairs has promulgated regulations 
and established programs that oversee lands, criminal justice, 
education, infrastructure specifically pertaining to tribal 
groups. Yet tribal groups continue to struggle to grow their 
economies, provide jobs for their members, and have access to 
fundamental building blocks of a prosperous society.
    According to the most recent available data, national 
unemployment rates for Indians was as high as 15.2 percent. On 
some reservations, unemployment rates reach as high as 50 
percent. There is bipartisan agreement on the many failures of 
the BIA. Information was retrieved from the GAO and OIG in 
addition to tribal interviews on how BIA could better serve 
Americans Indians.
    The Department of the Interior Office of the Inspector 
General has written numerous reports about widespread, systemic 
failures of the BIA and the Bureau of Indian Education, Two of 
the bureaus within the Department of the Interior responsible 
for administering programs designed to provide essential 
services to American Indians.
    OIG investigators and auditors found disturbingly poor 
conditions in Indian schools prepared by the Bureau of Indian 
Education. Students attend classes sometimes in condemned 
buildings that lack proper electrical and heating systems, no 
fire detection systems, no running water. In some cases, 
buildings crumble around children as they attend class.
    The Office of Inspector General also found that school 
violence was rampant, and students and staff were risking their 
safety and sometimes their lives attending some of these 
schools. These conditions are clearly not conducive to 
learning.
    The Bureau of Indian Affairs has been accused of 
mismanaging taxpayer money by spending of tens of millions of 
dollars on failed programs such as bungled conversion of the 
narrow band radio technology. A BIA program can hamstring 
access to economic development by regulations and a process 
that hinders land leasing for natural resources.
    Tribes are often at the mercy of the Federal Government's 
decisions and have little recourse for injecting their own 
opinions for self-determination of these processes. In other 
instances, private entities often pass up investment 
opportunity on Indian land because of a complicated 49-step 
process, which includes NEPA analysis required for development 
on Federal trust land.
    Investment on tribal land is also impeded by 
fractionalization, a process begun almost 150 years ago by the 
General Allotment Act of 1887. Land parcels given to tribal 
members are owned in fractional portions by thousands of heirs. 
Both of these land management practices can present barriers to 
the development of resources on Native American lands.
    Given these problems, it is disturbing that BIA has a long 
history of nonresponsiveness to the Office of Inspector General 
and other oversight entities and routinely ignores these 
reports and recommendations, while continuing to fall short on 
delivering the basic services to 1.9 million American Indians.
    This hearing is not designed with predetermined outcomes. 
We are listening and looking for input. We look forward to your 
testimony today, and we thank you very much for attending and 
contributing your time.
    As chair, I now recognize the distinguished ranking member, 
Mr. Connolly, for his opening statement.
    Mr. Connolly. I thank the chairman, and I thank you for 
holding these hearings.
    Given the fact that we are already voting, I will just 
summarize a couple of high points of my testimony.
    Without objection, would the full statement be entered into 
the record?
    Mr. Lankford. Absolutely, without objection.
    Mr. Connolly. I thank the Chair.
    I think the chair has outlined some of the problems in the 
Native American community and especially in management issues 
with BIA, from education to waste, fraud, and abuse in the 
programs.
    On the other hand, I would hope that we would broaden our 
consideration to also look at the disinvestment in the Native 
American community occurring in this Congress.
    If you look at H.R. 1, the continuing resolution that was 
passed on a party line vote a month and a half ago, that cut 
Native American housing block grants by $200 million. It 
reduced Royal Utility Service by 24 percent and eliminated 
entirely the Native American youth program. I believe that 
those cuts are going to have serious impacts in the Native 
American community throughout the United States, and so I will 
be interested in hearing testimony about what are those impacts 
and what other kinds of things do we need to avoid.
    I notice, for example, that an awful lot of Native American 
communities strongly urged us, especially western fishing 
groups are urging us not to pass H.R. 872 deregulating 
pesticides in the Clean Water Act. Yet, of course, we are bound 
to do that. That is going happen, unfortunately.
    I believe that we also ought to be looking at exploring 
opportunities for further collaboration between the Federal 
Government and Native American communities. Clearly, the BIA 
could do more in promoting tourism. Clearly, the BIA and other 
elements of the Federal Government could be collaborating with 
a lot of Native American communities on renewable energy 
resources, wind power, solar power, and could actually take 
advantage of a natural resource we all share, especially in 
many of those communities.
    So I will be very interested in talking about job creation 
and in taking advantage of some resources and opportunities 
that exist in the community and where perhaps some of the 
decisions already made in this Congress have perhaps 
unintentionally but nonetheless had a deleterious affect on the 
community.
    Thank you so much and thank you, Mr. Chairman.
    Mr. Lankford. You are very welcome.
    Members will have 7 days to submit opening statements, any 
other materials for the record; and other witnesses may submit 
items for the record to be able to be included within the next 
7 days.
    We are going to take a short recess, and when we come back 
I want to be able to introduce our guests that are here and 
swear you in and begin the process for this. We will have other 
Members that will join us at that time.
    We expect about four votes, which that would mean probably 
around 40 minutes or so. So if you need to be able to slip away 
and be able to come back, you will have time to be able 
accomplish that. And then our staff will be here, and they will 
be able keep you up to date what is happening during the voting 
process.
    Thank you for being here, and we stand in recess.
    [Recess.]
    Mr. Lankford. The subcommittee will come back into order.
    We are going welcome our panel of guests. I am very honored 
that you all chose to be able to here today and be able to 
share your testimony with us, both oral and written testimony.
    Ms. Mary Kendall is now the Acting Inspector General at the 
Department of the Interior. Thank you very much for being here. 
Ms. Anu Mittal is the Director of the Natural Resources 
Environment Team at GAO. Ms. Patricia Douville, council 
representative for the Rosebud Sioux Tribe. And Mr. Ron Allen 
is the chairman of the Jamestown S'Klallam Tribe.
    So we really appreciate you all being here.
    It is our tradition that we swear in witnesses before we 
begin testimony. If you all would please stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Lankford. Thank you. Let the record reflect the 
witnesses answered in the affirmative. You may be seated.
    In order to allow time for discussion, I ask you to be able 
to limit your oral testimony to around 5 minutes or the lights 
that you will see in front of you there will help count 
everything down for you.
    Your entire written statement will be made part of the 
record, in case you don't get all of your oral testimony in.
    I would like to begin with you, Ms. Kendall; and you may 
begin your 5 minutes.

   STATEMENTS OF MARY L. KENDALL, ACTING INSPECTOR GENERAL, 
 DEPARTMENT OF THE INTERIOR; ANU K. MITTAL, DIRECTOR, NATURAL 
RESOURCES AND ENVIRONMENT TEAM, U.S. GOVERNMENT ACCOUNTABILITY 
  OFFICE; RODNEY M. BORDEAUX, PRESIDENT, ROSEBUD SIOUX TRIBE, 
   GIVEN BY PATRICIA DOUVILLE, COUNCIL MEMBER, ROSEBUD SIOUX 
   TRIBE; AND RON ALLEN, CHAIRMAN, JAMESTOWN S'KLALLAM TRIBE

                  STATEMENT OF MARY R. KENDALL

    Ms. Kendall. Thank you, Mr. Chairman, members of the 
committee for the opportunity to testify today about the 
challenges associated with economic development on tribal lands 
and creation of jobs for American Indians.
    Responsibility to American Indians has consistently been a 
top management challenge for the Department of the Interior. 
The myriad problems we have uncovered in BIA portray programs 
that are sorely understaffed and poorly managed. The OIG has 
identified gross program inefficiencies at many levels at 
Indian Affairs and in tribal land management of Federal funds.
    Let me summarize some of the more recent work we have done 
regarding the Bureau of Indian Affairs.
    The Federal Government has long acknowledged the complexity 
of land fractionation on Indian trust operations. Fractionation 
is the result of dividing tribal land into parcels and 
allotting the parcels to individual Indians. The allotments are 
then subsequently divided among heirs through probate. With 
each generation, the amount of fractionation increases. We are 
working with the Department as it develops a comprehensive plan 
that will guide its efforts to significantly reduce 
fractionation.
    We found that $32 million in roads funds were distributed 
by one region annually, but only $3 to $4 million in roads 
projects had any physical oversight or verification of work by 
BIA.
    In another instance, we determined that BIA paid out over 
$2.4 million for airport and roads improvement. Of that, we 
estimate that $1.6 million had a been expended on a 
nonspecified road maintenance project and that as much as 
$200,000 may have been overbilled by a subcontractor.
    BIA also mismanaged a $9 million DOT funded ferryboat in 
Alaska that turned into a private boat tour.
    In each of these instances, meaningful management oversight 
was, quite simply, absent.
    Nearly 7 years ago, the OIG conducted a thorough assessment 
of Indian country detention facilities. Our assessment revealed 
a long history of neglect and apathy on the part of BIA 
officials, which resulted in serious safety, security, and 
maintenance deficiencies at the majority of the detention 
facilities in Indian country.
    We recently completed an evaluation of BIA's efforts to 
improve staffing levels at their detention facilities, a 
critical issue directly impacting safety and security and a key 
recommendation from our 2004 report. We have determined that, 
despite the focus of the seriousness of the problem and a 48 
percent increase in funding, in excess of $64 million, BIA has 
failed to address the staffing shortages and the state of these 
facilities remains largely unchanged.
    In February 2010, the OIG issued an evaluation of school 
violence prevention measures in tribally operated schools. 
Overall, our evaluation revealed that many schools are 
dangerously unprepared to prevent violence and ensure the 
safety of students and staff. That report on school violence 
was preceded by a report in August 2008, addressing 
preparedness for violence in BIE-operated schools. Our findings 
were, not surprisingly, very similar.
    In some other management weaknesses, 10 individuals, 
including a BIA agency superintendent, have been indicted in 
connection with a decade-long fraud scheme to embezzle funds 
from a tribal credit program. Seven of the 10 indicted, 
including two other BIA employees, have pleaded guilty to 
various changes related to the fraud scheme. Total loss to the 
credit program is approximately $1.2 million.
    For 14 years, BIA funded a nonexistent fish hatchery. BIA 
continued to fund the hatchery even after a superintendent 
visited the reservation and saw that the hatchery site had been 
converted into office space.
    Due to our resource limitations, the OIG refers many 
serious allegations of employee misconduct such as fraud, 
theft, retaliation, and misuse of funds to the BIA on a regular 
basis with the expectation that the issues will be 
appropriately resolved or that poor managers and other 
ethically challenged employees will be held accountable. 
Unfortunately, BIA more than any other bureau at Interior, has 
a history of failing to respond to the OIG referrals or, even 
worse, completely disregarding the serious matters referred to 
them.
    Thank you, Mr. Chairman, for the opportunity to share this 
information with you. I will be happy to answer any questions 
you or other members of the committee may have.
    [The prepared statement of Ms. Kendall follows:]

    [GRAPHIC] [TIFF OMITTED] T8049.001
    
    [GRAPHIC] [TIFF OMITTED] T8049.002
    
    [GRAPHIC] [TIFF OMITTED] T8049.003
    
    [GRAPHIC] [TIFF OMITTED] T8049.004
    
    [GRAPHIC] [TIFF OMITTED] T8049.005
    
    [GRAPHIC] [TIFF OMITTED] T8049.006
    
    Mr. Lankford. Thank you very much.
    Director Mittal.

                   STATEMENT OF ANU K. MITTAL

    Ms. Mittal. Mr. Chairman and members of the subcommittee. I 
am pleased to be here today to participate in your hearing on 
challenges to the economic development in Indian country.
    As you know, Indian tribes are among the Nation's most 
economically distressed groups and often lack basic 
infrastructure. Without such infrastructure, tribes often find 
it difficult to compete successfully in the economic 
mainstream.
    In addition, our past work has identified several unique 
circumstances that exist in Indian country that may create 
additional uncertainties or impediments for both tribes and 
private companies wishing to pursue economic activity in these 
areas. I would like to briefly describe five of these unique 
circumstances for you.
    The first unique circumstance that creates uncertainty 
relates to the land-in-trust status for Indian lands. In 1934, 
the Indian Reorganization Act provided the Secretary of the 
Interior discretionary authority to take land in trust on 
behalf of federally recognized tribes or their members. Trust 
status helps secure these lands for tribal use, and these lands 
are no longer subject to State and local property taxes and 
zoning ordinances.
    However, a 2009 Supreme Court decision has created 
significant uncertainty regarding the land-in-trust status for 
a large number of tribes. This is because the Supreme Court 
ruled that Interior can only take land in trust for tribes that 
were under Federal jurisdiction in 1934. At this time, it is 
unclear how many pending land-in-trust applications will be 
affected by this decision.
    The second circumstance unique to Indian country relates to 
tribal environmental standards. The Clean Water Act, Safe 
Drinking Water Act, and Clean Air Act authorized the EPA to 
treat Indian tribes as States for the purposes of implementing 
these laws on tribal lands. As sovereign governments, tribes 
want to exercise this authority because they believe they are 
more familiar with their own environmental needs. However, 
States are concerned that allowing tribes to set these 
standards could result in a patchwork of standards within the 
State and potentially hinder a State's overall economic 
development plans.
    Our past work has indeed found that this authority has 
resulted in several disagreements between tribes and States. In 
addition, more stringent tribal standards could also act as a 
disincentive for companies who may choose to not operate their 
businesses on tribal lands because of these standards.
    The third circumstance relates to the use of special tax 
provisions for Indian reservations. One example of such a 
special tax provision is allowing tribes to use tax-exempt 
bonds to finance essential government functions on 
reservations. Use of tax-exempt bonds lowers borrowing costs 
for tribes and provides higher after-tax yields to investors. 
However, it is unclear to what extent this provision has 
actually helped tribes, because the IRS has not yet issued 
regulations defining what activities are allowable under this 
provision. Without these regulations, tribes have limited 
guidance to help them decide what function they can fund with 
tax-exempt bonds.
    The fourth circumstance relates to the complex process of 
obtaining rights of way across Indian lands. Securing rights of 
way is an essential step to providing tribes with the critical 
infrastructure that they need to support economic activity. 
However, obtaining rights of way can be time-consuming and 
expensive, in part because Interior must approve these 
applications.
    Several of the steps that service providers must take to 
get Interior's approval involve negotiating with the 
landowners, who can be individuals, multiple owners, or tribes. 
If an individual allotment of Indian land is owned by multiple 
owners, sometimes reaching into the hundreds, then this process 
can become even more onerous because Federal regulations 
require that the majority of owners must approve a right of way 
before it can be finalized.
    The final unique circumstance I would like to discuss is 
the legal and judicial systems that exist in Indian country. 
Having effective legal and judicial systems is often considered 
a prerequisite to attracting private investment to tribal 
lands. This is because such systems provide investors with 
assurance that disputes will be resolved fairly. However, the 
legal and judicial systems on tribal lands are fairly complex 
and tribes also have sovereign immunity. These circumstances 
can act as disincentives for businesses who are trying to 
decide whether to operate on tribal or nontribal lands.
    As you can see, Mr. Chairman, there are a number of unique 
circumstances that tribes and business owners must consider 
when making decisions about whether or not to pursue economic 
development in Indian country. In some cases, these 
circumstances can act as impediments.
    This concludes my prepared statement. I'd be happy to 
answer any questions.
    [The prepared statement of Ms. Mittal follows:]

    [GRAPHIC] [TIFF OMITTED] T8049.007
    
    [GRAPHIC] [TIFF OMITTED] T8049.008
    
    [GRAPHIC] [TIFF OMITTED] T8049.009
    
    [GRAPHIC] [TIFF OMITTED] T8049.010
    
    [GRAPHIC] [TIFF OMITTED] T8049.011
    
    [GRAPHIC] [TIFF OMITTED] T8049.012
    
    [GRAPHIC] [TIFF OMITTED] T8049.013
    
    [GRAPHIC] [TIFF OMITTED] T8049.014
    
    [GRAPHIC] [TIFF OMITTED] T8049.015
    
    [GRAPHIC] [TIFF OMITTED] T8049.016
    
    [GRAPHIC] [TIFF OMITTED] T8049.017
    
    [GRAPHIC] [TIFF OMITTED] T8049.018
    
    [GRAPHIC] [TIFF OMITTED] T8049.019
    
    [GRAPHIC] [TIFF OMITTED] T8049.020
    
    [GRAPHIC] [TIFF OMITTED] T8049.021
    
    [GRAPHIC] [TIFF OMITTED] T8049.022
    
    [GRAPHIC] [TIFF OMITTED] T8049.023
    
    [GRAPHIC] [TIFF OMITTED] T8049.024
    
    [GRAPHIC] [TIFF OMITTED] T8049.025
    
    [GRAPHIC] [TIFF OMITTED] T8049.026
    
    Mr. Lankford. We look forward to that conversation. Thank 
you, Director.
    Mrs. Douville, we will be honored to take your testimony 
now.

   STATEMENT OF RODNEY M. BORDEAUX GIVEN BY PATRICIA DOUVILLE

    Ms. Douville. Thank you.
    Good afternoon, Mr. Chairman and committee members. On 
behalf of President Rodney Bordeaux of the Rosebud Sioux tribe 
and the Sicangu Lakota Oyate, I would like to thank you for 
convening this hearing on regulatory barriers in American 
Indian job creation.
    The Rosebud Sioux Indian reservation is located in south 
central South Dakota. Our reservation consists of 900,000 plus 
acres of rolling prairie grasslands, rich for agricultural 
production and filled with other natural resources.
    Our tribal president, Rodney Bordeaux, has now presided 6 
years. The weight of his position bears heavily upon his heart. 
He has seen entirely too much poverty and tragedy on a daily 
basis among our people. This underlying poverty has caused many 
social ills and issues. Now it has become so pronounced that an 
air of hopelessness exists on the reservation, especially 
within our youth.
    According to the 2010 census, the Rosebud reservation lies 
in the fourth poorest county in our Nation. With your help, we 
intend to change this.
    Our natural resources here are many. We intend to use these 
resources to the best of abilities, from grazing cattle to 
farming leases along with timber production.
    In the future, we seek to build our economy from the 
renewable energies that our resources provide, from wind 
development, hydropower, geothermal, to biomass into fuels.
    The Rosebud Sioux tribe has been exploring the potential of 
wind power since 1998. In March 2003 we built a 750 kilowatt 
Neg Micon turbine capable of providing enough energy--
electricity for 200 homes annually. We call this project the 
casino turbine project, because it is located next to our 
tribal casino.
    This effort was accomplished through the assistance of a 
Department of Energy grant and a rural utility service loan 
through the U.S. Department of Agriculture. From this initial 
project, the Rosebud Sioux tribe accomplished a goal of having 
the first commercial sale of wind energy by a tribal government 
in the United States, and we are very proud to state that. Our 
partners in the accomplishment were Distributed General Inc. of 
Lakewood, CA [DISGEN], and the Intertribal Council on Utility 
Policy [ICOUP].
    After our first project, we continued our partnership with 
DISGEN; and with their assistance we have applied for and were 
awarded a second DOE grant in 2003 to conduct all the 
preconstruction activities to develop a 30 megawatt wind farm 
near the town of St. Francis, South Dakota, on tribal trust 
lands, called the Owl Feather War Bonnet Wind Farm.
    In 2008, 5 long years since the award, a FONSI was issued 
by the Bureau of Indian Affairs; and a grant of use and lease 
agreement with DISGEN and OFWB LLC was also provided by the BIA 
and the tribe. Despite insurmountable hurdles and delayed 
action from BIA, we have had a shovel ready wind farm project 
since August 2008.
    The remaining issue to overcome is the Power Purchase 
Agreement, PPA. This issue has severely tested the expertise of 
our developer, Dale Osborn of DISGEN, due to the uniqueness of 
the project being on tribal trust lands and the distance to 
electric loads.
    Timing is an important issue in this matter, and the 
project needs to be ready when an RPF is posted. If the BIA did 
not take 18 months to approve the grant lease agreement, the 
project could have been operating and making a sorely needed 
revenue stream for the tribe.
    We had two draft PPAs in hand, but due to the lack of wind 
experience within BIA and the BIA extensive timeframes, the 
RFPs for renewable energy from Basin Electric and then Nebraska 
Public Power District has expired. DISGEN's efforts to make 
this project succeed are undeniable; and they have, in my view, 
exhausted all efforts to work with NPPC and Southwest Power 
Pool to respond to all RFPs applicable.
    Unless we sell directly to NPPD, the project cannot get 
built. Selling beyond NPPD, wheeling and tariff fee will drive 
the economics beyond the cost to build and repair the project, 
plus royalties. It is estimated that we can build this project 
at $66 million if the project can ensure a PPA at 4\1/2\ cents 
a kilowatt, escalating at 2\1/2\ percent annually with no 
wheeling or tariff fees imposed and only if we sell to NPPD.
    A power purchase agreement is the only remaining 
significant issue that needs to be completed for OFWB. It has 
identified three Federal energy buyers that may apply for 
``double RECs'' points toward the renewable energy goals of the 
Energy Policy Act of 2005: The first one is any Federal agency 
through the WAPA system that take can the energy from the St. 
Francis substation; the Omaha Public Power District that could 
sell the energy and renewable energy certificates to Offutt Air 
Force Base; and NPPD that could sell the energy and RECs to the 
Federal customers. This project can be constructed by the end 
of 2011.
    The Federal Government can make this project happen if 
trust responsibility is exercised in good faith. We are not 
asking for moneys to fund this project. We are asking the 
Federal Government to assist us in efforts to secure a PPD, 
help us find this path.
    We also ask that you live up to the doctrine of trust 
responsibility in assisting us to help ourselves in building 
our economy. Direct the Department of Energy to assist the 
Bureau of Indian Affairs to fine-tune and quicken the process 
of all economic development ventures on Federal Indian trust 
lands.
    The current process is too time-consuming and bureaucratic, 
most often killing any project immediately, as most investors 
don't want a project to be collecting dust on BIA's shelf. This 
will eliminate an overly bureaucratic process to develop 
renewable energy. The Rosebud Sioux tribe intends to utilize 
the revenue stream from our commercial wind efforts to teach 
energy education, energy efficiency, and energy independence. 
The use of our natural resources will help our people in the 
tribe to build self-sustainable businesses from renewable 
energy sources.
    The revenue brought forth will adjust our people's drastic 
need to upgrade our existing houses into energy efficient homes 
with renewable energy devices attached and to lessen our 
dependency on the larger electrical grid, along with the 
employment and businesses for our people.
    Thank you for your time. I wasn't able to read the whole 
testimony, because it is quite lengthy, as you can tell. I was 
only speaking on one issue, but there are so many more that we 
have.
    [The prepared statement of Mr. Bordeaux follows:]

    [GRAPHIC] [TIFF OMITTED] T8049.027
    
    [GRAPHIC] [TIFF OMITTED] T8049.028
    
    [GRAPHIC] [TIFF OMITTED] T8049.029
    
    [GRAPHIC] [TIFF OMITTED] T8049.030
    
    [GRAPHIC] [TIFF OMITTED] T8049.031
    
    [GRAPHIC] [TIFF OMITTED] T8049.032
    
    Mr. Lankford. We will have several questions for you, and 
we will be honored to have that testimony and put it into the 
written record as well.
    Ms. Douville. Thank you.
    Mr. Lankford. No, thank you very much.
    Chairman Allen, I am honored you are here. Pleased to 
receive 5 minutes of testimony from you.

                     STATEMENT OF RON ALLEN

    Mr. Allen. Thank you, Mr. Chairman.
    Well, you have my testimony, and thank you for accepting it 
and putting it in the record.
    Again, I am Ron Allen, chairman of Jamestown S'Klallam 
tribe located in western Washington State. I am also the 
treasurer for the National Congress of American Indians, and I 
have served in that organization for about 20 years. I've been 
the chairman for 34 years, and so I have been actively involved 
in Indian country from east to west, north to south. I probably 
have been on more Indian reservations than anybody, except 
maybe Senator Dan Inouye.
    This topic of regulatory barriers for economic development 
and job creation in Indian country is a very broad category. In 
our testimony, we share with you the success of my tribe, 565 
Indian nations in America. We are from small, like my tribe, to 
larger ones, like Rosebud Sioux; and we all have various 
different circumstances in which we want to advance our 
economic development and our independence.
    The independent nature of the Indian communities is a 
longstanding historical relationship. The mere fact that there 
has become a dependency is not our fault. It is a fault of a 
system that is a historical system. So the question of the 
regulatory barriers is relative to what is the Federal 
Government's obligation and responsibilities via treaties and 
statutes and just moral, legal responsibilities to the Indian 
communities as governments in our political system. We think it 
is deeply rooted and curved back into the Constitution.
    But we also feel that we have made great success as the 
U.S. Government has made a decision. Termination, assimilation 
are policies that don't work. Empowerment of tribal governments 
in our communities and our people in order to advance economic 
development does work, and you have seen in the last 25 plus 
years where it is becoming more and more successful.
    You heard in previous testimony different examples and 
different areas that need some work. Fraud and abuse issues 
that are out there, yes, but relative to how the success is, it 
is a small area. So we don't want you to see a few small areas 
where we have gone awry and judge how well we are doing 
categorically across America.
    Success is going exceptionally well in economic 
development, but we do have barriers. The GAO made the point of 
examples of access to finance. The Tribal Government Tax Status 
Act passed in 1984 created the authority of us to issue tax 
exempt bonds, to seek revenues in order to advance economic 
development in our communities. But it does not treat us the 
same as other governments. Well, that is not right. If you have 
cities coming in and they are telling you we are not treated 
the same way as the States, you would create a fair playing 
ground for them. So access to resources and finances is very 
important to our communities.
    The other comment that was made that you need to understand 
is other bureaucracies' impediments to us getting economic 
development or to our governments having stronger capacity. 
Well, the issue is, do they have the resources? So if you look 
at our political structure as governments, do we have the legal 
political infrastructure that is conducive to the private 
sector coming onto the Indian reservations and conducting 
business. So do they have recourse or do they have an incentive 
to come on--you know, tax benefits and things of that nature. 
Whether it is energy or whether it is creating widgets or 
whether it is advancing different resources--you have timber 
or, like in my area, fisheries industry--what is their 
incentive to come into our reservations and do business?
    My tribe shows you that we can be successful. There are 
other tribes doing the same thing. We don't want you to be 
skewed by the gaming industry that has been quite successful, 
some of the tribes. Out of the 555, 230 or 240 are in the 
gaming industry. Out of that 230 and 240, there are only a 
couple--a triple dozen that actually are the really successful 
ones you hear about, not the majority. They are more break 
even, even though they created jobs.
    But what it has done that you need to understand is that it 
has created a new kind of resource made available to the tribal 
government they now can invest into their communities and 
diversify their economic development portfolio and do things 
that the Federal Government can't do. So you see areas where 
tribes are becoming more resourceful and more independent, 
self-governance, a legislation that is very effective in us 
negotiating for our fair share of the Federal system and let us 
manage it.
    So if you ask yourself, how much would it cost us to help 
you become more independent? You don't have enough money. You 
don't have enough money to deal with America's problems today. 
We can't count on you to live up to those treaty commitments. 
But if you empower us, if you help us become stronger as 
government, we can get the job done and we can show you 
countless examples where it is working.
    So I am just touching on a few of the issues, Mr. Chairman. 
This topic is a broad issue. There are people out there in the 
Federal system who are trying and they have their own 
constraints and there are regulatory impediments, no question 
about that, that should be removed. But the issue is can you 
count on us to become part of the health and economic fiber of 
America. Yes, for the most part, we are in rural America; and 
rural America is an equal part of the fiber of this Nation.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Allen follows:]

    [GRAPHIC] [TIFF OMITTED] T8049.033
    
    [GRAPHIC] [TIFF OMITTED] T8049.034
    
    [GRAPHIC] [TIFF OMITTED] T8049.035
    
    [GRAPHIC] [TIFF OMITTED] T8049.036
    
    [GRAPHIC] [TIFF OMITTED] T8049.037
    
    [GRAPHIC] [TIFF OMITTED] T8049.038
    
    [GRAPHIC] [TIFF OMITTED] T8049.039
    
    [GRAPHIC] [TIFF OMITTED] T8049.040
    
    [GRAPHIC] [TIFF OMITTED] T8049.041
    
    [GRAPHIC] [TIFF OMITTED] T8049.042
    
    [GRAPHIC] [TIFF OMITTED] T8049.043
    
    [GRAPHIC] [TIFF OMITTED] T8049.044
    
    [GRAPHIC] [TIFF OMITTED] T8049.045
    
    [GRAPHIC] [TIFF OMITTED] T8049.046
    
    [GRAPHIC] [TIFF OMITTED] T8049.047
    
    [GRAPHIC] [TIFF OMITTED] T8049.048
    
    [GRAPHIC] [TIFF OMITTED] T8049.049
    
    Mr. Lankford. Thank you very much for your testimony.
    Let me run through just a few questions that I will have 
and briefly get some more context on it.
    Chairman Allen, are you on a reservation tribe or 
nonreservation tribe?
    Mr. Allen. I am a reservation tribe. I am a small 
reservation. We own about a thousand acres. Of that thousand 
acres, we have only about 35 actually in reservation status.
    Mr. Lankford. OK. So the other--so you have a thousand 
acres there. Thirty-five you're saying is in trust, is in 
reservation status; that what you are saying?
    Mr. Allen. Yes. And we have a lot of land that is in the 
process--it was noted earlier about the land in the trust 
process that had an impediment because of the Carcieri Supreme 
Court decision. Once that is removed, then it opens up that 
opportunity for that trust status, and many of us will 
reacquire it, whether it is a ``checkerboard'' reservation or 
whether it is on a reservation like ours trying to strengthen 
our homeland base.
    Mr. Lankford. OK. You mentioned, Chairman Allen, about 
empowerment's better than forced assimilation. Can you give me 
a specific example of what you would say, this is empowerment? 
What would be helpful?
    Mr. Allen. Relative to the assimilation policy?
    Mr. Lankford. No, no, no. You were saying empowerment is 
better than forced assimilation by far. So what I am looking 
for is a specific example of what you mean.
    Mr. Allen. Probably the one that comes quick to mind is, as 
a government, if the government--even though we have 
individuals we are trying to enhance with regard to their 
business, as governments we have no economic base so we have no 
revenue base. So our revenue base is based on the businesses 
that we generate. So if we're going to become independent from 
the Federal Government and become less dependent on it, then 
that base has to be the foundation for these unrestricted 
resources that deal with the unmet needs in our community.
    Mr. Lankford. OK.
    Mr. Allen. And so the issue for us would be the government 
has to have the authority that resource is tax exempt. The 
rules, the laws that recognize that unique stature of tribal 
corporations and the revenue generated by it and the IRS 
recognition of those, that authority, is a big deal to us and 
as well as the authority--the unencumbered authority to secure 
tax-exempt loans for economic development.
    Mr. Lankford. Thank you.
    Ms. Kendall, can I ask you a question about 
fractionalization that came up earlier? Is there a list that is 
available to the tribes of the land that is currently going 
through--obviously, people are being contacted now based on 
what just occurred last year and the purchase of lands and 
people are being contacted to see if they want to be able to 
combine that out, correct?
    Ms. Kendall. Is your question are people being contacted?
    Mr. Lankford. Well, yes. That is going on currently, is 
that correct?
    Ms. Kendall. I believe so.
    Mr. Lankford. The question that I have is, are the tribes 
made aware, because if the land is purchased back then it is 
ceded to the tribe, is that correct, as trust lands?
    Ms. Kendall. That's my understanding.
    Mr. Lankford. Will the tribes be aware that this land is in 
process? Is there any system that you know of that is in place 
out there so the tribes know here is the land going through the 
process and there are 10 that are still interested and 20 that 
are not in the purchase process.
    Ms. Kendall. What my understanding is, is the Department 
has presently a program that addresses fractionation. It's been 
a very small program up until the promise that the Cobell 
settlement has. The Department for a number of reasons had not 
put a plan in place until the approval goes through. They are 
thinking about it. They are talking internally. But they have 
not done the kind of proactive communication, I guess because 
they don't want to sort of preempt the finalization of 
settlement.
    Mr. Lankford. OK, thank you. The question that we will try 
to ask them directly on that and be able to track down that.
    Director Mittal, a question for you on just dealing with 
the dynamics of all of these issues that you are raising. You 
raise some terrific issues on how did we get involved in this. 
Some of this boils down to BIA really has a responsibility to 
help businesses know how to navigate through Indian law and 
dealing with their court systems and unique dynamics of that so 
businesses will not feel prohibited to be there. They will be 
encouraged to be there, and someone can help them navigate 
through that.
    Do you see anywhere out there a process that's in place 
from BIA to say we are going help any business, whether it is a 
McDonald's or whether it is a company that builds widgets, as 
Chairman Allen mentioned before, that wants to be able to come 
here so that someone will help them through that process? Does 
that kind of program exist?
    Ms. Mittal. I am not aware of such a program--such a 
comprehensive program. There might be individual programs for 
specific parts within BIA, for example, to help them navigate 
the judicial system and things like that, but I'm not aware of 
a comprehensive program like you just described.
    Mr. Lankford. Ms. Kendall, are you aware of any type of 
program like that would help outside businesses that want to be 
able to invest in tribes know how to be able to navigate the 
process?
    Ms. Kendall. I am not, sir.
    Mr. Lankford. That is one--we will try to be able to 
followup on that one as well.
    Director Mittal, you had also mentioned the patchwork of 
environmental standards. Can you talk about just the 
relationship, the States--the State, the tribe, and the Federal 
all trying to work together, has that become an issue for 
businesses being able to come in? And what are the solutions 
that are being formed on that? Who's finding a way to solve 
that, I guess I should say, or a success story?
    Ms. Mittal. We haven't actually looked at the relationship 
between those tribal standards and businesses. What our past 
work has looked at is the conflict that creates between the 
tribal governments and the States. So those are the issues that 
we have seen that, in the past, that because the tribes have 
this authority under the three acts they have created conflicts 
with the States. For example, States don't like the fact that 
the tribes are setting standards that are more stringent than 
the State standard. So that's the area we have focused on. We 
haven't done any extensive work looking at the effect it has 
had on businesses.
    Mr. Lankford. Thank you very much.
    I am out of time, and I recognize the ranking member, Mr. 
Connolly, for 5 minutes of questioning.
    Mr. Connolly. Thank you, Mr. Chairman.
    I see we have been joined by our full committee chairman. I 
would be happy to yield to him, reclaiming my time when he is 
finished.
    Mr. Issa. That is very generous. The ranking member knows 
that I generally am afraid to ask questions and then move to 
another subcommittee. So very wise of you, Gerry. But thank 
you.
    I'll be brief. I've got just a couple of questions, and 
they are sort of between the two government entities here.
    Ms. Kendall, you produce IG reports and conduct audits and 
investigations, report your finding to the BIA. Is BIA 
responsive to the information you are sending them?
    Ms. Kendall. Not always. We do get responses primarily on 
the audit side. We request responses from investigations that 
we provide to them.
    Mr. Issa. Why do you think they don't respond with some 
predictability?
    Ms. Kendall. I wish I knew the answer, Mr. Chairman. I 
simply don't. One of the feelings we get in the Office of 
Inspector General is they are simply outwaiting us.
    Mr. Issa. Hmm. You know, one of the things we like here is 
that it is harder to outwait us. So it is an area we do want to 
ask you to submit a good subsegment of ones that you feel that 
you need a response for, haven't gotten a response, or at least 
it would be helpful, and let us know about them. Because we 
probably, in most cases, want to know as badly as you do and 
will be able to ask independently. Quite honestly, those would 
help educate us.
    The chairman, the question that was actually more directed 
toward our U.S. Government representatives, but I would ask 
you, do you think there is any way that your tribe could 
navigate through business attempts with the current BIA 
support? Meaning, if you didn't hire your own lawyers at 
whatever expense you have to pay for specialists that 
understand the tribal process with BIA, do you think there is 
any chance you could do it without that expense?
    Mr. Allen. Yes.
    Mr. Issa. Do you do it?
    Mr. Allen. We are doing it.
    Mr. Issa. Including land-in-trust applications.
    Mr. Allen. No, the land in the trust is a Federal function 
that we can't do. There are components of that process that we 
could do, if they would accept it, including the environmental 
review process. We do a lot of that for them. So that's where a 
lot of the Federal functions can be taken over by us that 
aren't essential Federal functions. That would make the process 
move much smoother and much faster.
    Mr. Issa. Let me do one followup question for either of the 
tribal members. I have worked on land in trust for a number of 
the tribes in my district and around the area. And even, for 
example, when BLM is begging the tribe to take land that they 
don't have the funds to maintain, that are not developable but 
they have ancestral significance, we go through a long, 
multiyear process to get it in trust. And so even when it is in 
the Federal Government's best interests to deliver it, even 
when the tribe is willing to pay for the future maintenance, 
etc.--because I have some well-to-do tribes--you can't get the 
process quickly, in concert with the Natural Resources 
Committee, obviously the committee of primary jurisdiction.
    I would ask all of you, do you believe that what we should 
be doing is to come up with greater master plans of the 
aspirations of tribes, commit land-in-trust designations so 
that if fee land is acquired at any time it has already gone 
through the process in a master plan, the same way as a city 
often doesn't have all of its territory filled out, but it will 
stake the claim to that. I would take it from both sides, if 
you could, because it's an area I have never been able to move 
along, but that I think would be part of that changing of it. 
If you could literally clear those areas of aspiration so that 
then when they become available through fee or other purposes 
you could acquire them.
    Please, Chairman.
    Mr. Allen. Well, first of all, the answer is yes, that most 
tribes have a comprehensive land use plan that usually includes 
their existing reservation and their ceded territory where they 
resided. And it can be a little complicated because in many of 
our communities it overlaps into our sister tribes. So we have 
to be respectful that our comprehensive plan, land plan, we 
want to acquire lands for multiple reasons--economic 
development, cultural reasons, natural resources, etc.--that 
may overlap.
    Some areas very clearly is in our territory of the tribe, 
but some will overlap into other territories that our sister 
tribe will have an interest in, and we have to resolve those 
issues.
    But there are some issues within the process that we have 
to be careful. The U.S. Government does not want to take land 
into trust. If there is any liability--I mean any liability--it 
will not take any land in trust. So we have to go through--
that's why sometimes the process takes a long time.
    There may be something identified, environmentally or so 
forth, that the U.S. Government says we have a problem. Until 
we get that resolved so that I have absolutely no liability, 
this land will not be taken into trust. That has been the 
biggest hiccup in the process--the Carcieri problem that we 
currently are emerging.
    Many tribes do not have that comprehensive plan in place, 
and they should be encouraged to do that. Because their ceded 
territory is often much greater than their reservation base.
    Mr. Issa. My time has expired.
    In the case of California, where they lost all of their 
ancestral tribes, they were part of the mission system in most 
cases, and even if they got it they were often checkerboards 
where these fell out during the allotment period. That's the 
area we have dealt with a lot, where when you buy a piece 
within your contiguous border you still have to go through an 
extensive and expensive process to get it in trust.
    Any other comments? Because my time has expired. But if 
there is anything else the committee should know about 
expediting that process in order to allow for, particularly, 
beneficial use?
    Mr. Connolly, I am in your debt. I yield back.
    Mr. Connolly. Thank you, Mr. Chairman.
    With the permission of the chair----
    Mr. Lankford. Absolutely. I thank you for your courtesy on 
that.
    Mr. Connolly. Absolutely.
    While the chairman is still here, I would like to followup 
on his question to you, Ms. Kendall. I am not sure I understood 
your answer.
    You responded to Chairman Issa, when he said are you 
getting cooperation from BIA, you seemed to suggest no, and you 
seemed to suggest the reason you were given or the reason you 
understood that lack of cooperation was they were waiting you 
out. A, what kind of cooperation are you getting or not 
getting? How have you communicated to them that won't be 
acceptable? And ``waiting you out'' meaning what? You are the 
Acting Inspector General and maybe when they get somebody else, 
he or she will be friendlier?
    Ms. Kendall. No, not at all, sir. This has been a 
longstanding problem with BIA. And much of it has--not 
necessarily with our audits or investigations, but we refer a 
lot of allegations that we receive back to bureaus, and we do 
that with BIA as well. We probably receive--almost 50 percent 
of the allegations we receive relate to BIA. And so----
    Mr. Connolly. The whole Department of the Interior?
    Ms. Kendall. Yes. And so a good portion we will not 
investigate ourselves or conduct an audit ourselves.
    Mr. Connolly. Could I just interrupt you one more time just 
to make sure we all understand what you are saying. Fifty 
percent of the allegations--allegations implies fraud or a 
crime.
    Ms. Kendall. Allegations of wrongdoing one way or the 
other, yes. So I can say affirmatively that, in the matters 
that we refer to them to respond to themselves, they have been 
very lacking in getting back to us and being responsive. And, 
in fact, we have just really, in a sense of frustration, 
decided we will close these matters out as nonresponsive and 
start reporting them to Congress in our semiannual report.
    Mr. Connolly. Thank you. And you are the only IG with 
jurisdiction over the BIA?
    Ms. Kendall. Yes, sir.
    Mr. Connolly. Thank you.
    Chairman Allen and Ms. Douville, please feel free to 
comment as well, if you wish.
    I just want to tick off some of the items that were cut or 
eliminated in H.R. 1, the continuing resolution passed by party 
line vote here in the House:
    $581.3 million reduction for the State and local law 
enforcement assistance account which tribal courts and 
detention facilities receive funding from.
    $17.9 million reduction to Office of Special Trustee for 
American Indians.
    $9 million decrease to the BIA construction account.
    $900,000 reduction to the Indian land and water claim 
settlement miscellaneous payments account.
    Reductions proposed for Labor, Education, Health and Human 
Services serving American Indians, Alaska natives, including 
Head Start, tribal colleges, Native Americans serving nontribal 
institutions, tribally controlled postsecondary vocational 
institutions, and the list goes on.
    A decrease of $139.3 million to the IHS facilities account, 
which also affects tribal lands, and $200 million in reductions 
to the Native American housing block grant program.
    Would those reductions have any impact at all on the 
quality of life on reservations or tribal lands?
    Mr. Allen. Yes, absolutely. You know, there is no community 
in America that is more underserved than American Indian 
communities. All you have to do is look at the fact that our 
average unemployment rate in Indian country is in the mid-30's, 
just average. You go to Rosebud and Pine Ridge and some of 
these other communities where it is in the 70's and 80's. It is 
ridiculous.
    The fact that these Head Start programs or these school 
construction programs or roads programs or the reduction of 
loan guarantee programs--all disincentives to invest in our 
Indian communities. We don't have the physical infrastructure 
to take care of our it community needs.
    So it is not just about economic development. It is the 
community infrastructure to be able to take care of our 
families and our kids and to educate them and enhance their 
abilities, to care for their needs.
    Public safety, you want to talk about public safety issues? 
You must know about the atrocities going on in our communities. 
The violence against Indian women and families and our kids is 
just terrible. It is just a sad commentary of what is going on 
in society.
    So we know that Congress is wrestling over the deficit 
reduction, but we can tell you when you look at the $3 trillion 
budget relative to where we are, the Indian communities, the 
resources--the limited resources is a drop in the bucket. And 
we know they are shaving them everywhere they can.
    So I am telling you it is going to have a serious 
detrimental impact to what marginal success we achieved in the 
last couple of years. It has been stagnant. If you look at the 
budget and the way we have been moving forward, the most 
significant increases are in health care. But even in the 
significant increases in health care you can see the fact that 
we are still way behind when you measure every health care 
category, that you measure the health status of our communities 
and our people from the kids to the elders. And so it is a 
struggle for us.
    We see those programs--HUD program, go after a whole bunch 
of programs, community programs and economic development 
programs, natural resource enhancement programs, etc., that are 
out there. Each one of those programs all make a difference in 
our communities; and we are pushing to become stronger, more 
vibrant. They all contribute and interface and are 
interrelated.
    So the answer is, yes, it is a detriment, a setback. It is 
disappointing.
    Because we think we are getting traction with Congress, and 
we think Congress is listening to us, that we have some 
problems and needs, you know, in appropriations. The chairman 
says, we have a problem here. We are underserving Indian 
communities so we are going to hold the line. We are going, 
yes, hold the line, but also we are missing some serious needs 
here. Whether it is Interior or HUD or DOL or Labor or 
Commerce, each have a role in enhancing the welfare of our 
governments and our communities.
    Mr. Connolly. Thank you.
    Ms. Douville. Yes, all these cuts in H.R. 1, they are 
highly devastating to our tribes, especially to mine. 
Historically, we have never been funded at 100 percent; and 
that is the government trust responsibility to us.
    Cutting the housing, the IHS, we have programs that need 
this money. We have kids, children that depend on a lot of 
this. And that is our future. That's what we consider sacred, 
is our children. And cuts like this make it so hard, make it 
even harder for us. And the hopelessness that I have talked 
about earlier, it just pronounces it more.
    So with these cuts, if the government would live up to 
their trust responsibility, give us the 100 percent that we 
need and we are asking for, then we won't be a burden, and that 
would empower us to be just as equal as any other Nation within 
our Nation.
    So, yeah, this will hurt us, and it is going to hurt us. 
But we are strong. We will survive. We survived for hundreds of 
thousands of years. But with your help our quality of life 
would be better.
    Mr. Lankford. Ms. Kendall, earlier, you were talking about 
some of the issues of waste--sorry, I was referencing--Mr. 
Labrador. I apologize for that. Mr. Labrador.
    Mr. Labrador. You are fine, Mr. Chairman. I actually yield 
the time to you.
    Mr. Lankford. Thank you.
    You referenced earlier several issues that were coming up 
where funding had been allotted. As I recall, you referenced a 
48 percent increase in funding for detention centers. Than when 
you went back years later there was no change. Are there 
instances where funding is being allotted, how is that used? 
What are you finding in these situations?
    Ms. Kendall. The matter I am referring to specifically had 
to do with staffing in Indian detention centers. And, as a 
result, I believe in part of our 2004 report where staffing was 
one of the multiple concerns, Congress appropriated BIA a 
considerable amount of money--I think a 48 percent increase, 
about $62 million or so. And what our effort was was to go see 
how they spent that money; and, unfortunately, we could not 
determine how they accounted for it. And very little, if 
anything, was done to improve staffing.
    Mr. Lankford. The frustration that is experienced here is 
that there are so many different variant issues that we are 
dealing with. There is just a multitude of both legal--with 
land issues, with relationship issues with cities and with 
States and with the Federal Government that we are making job 
creation incredibly complex.
    And the greatest need that I see on the outside of this, 
and that is why I am asking coming in, is not necessarily 
additional dollars. It is the capacity for jobs to grow on 
their own and to be, as you mentioned before, Chairman Allen, 
self-sustaining and not be dependent, but to be a fully 
functioning national economy within the system that is 
functioning there on the tribe. To where tribes, as you 
mentioned before, the 230-some odd tribes that run casinos, 
great, they are running a functioning business, whether that be 
a wind farm to try to figure out the process of how to get that 
up so it can be sold and so that jobs can exist there, or 
whether that be a functioning business that is high tech, low 
tech, manufacturing, whatever it may be. We have to figure out 
the systems and the processes that need to be in place so that 
this can thrive on its own.
    Let me ask you, Ms. Douville, the type of jobs that exist 
among the tribe and on tribal lands, you mentioned the wind 
farms, great. You mentioned the casino that you have. What 
other jobs and industries or business that are there onsite?
    Ms. Douville. Right now, we have a lot of convenience 
stores, grocery stores, schools. Our tribal government, of 
course. And we employ about 500 to 600 people on the 
reservation.
    Mr. Lankford. Through the tribal government?
    Ms. Douville. Through the tribal government.
    We also have the Bureau of Indian Affairs, our agency 
there. I am not sure how much they employ or how many of the 
employees are Native American.
    Mr. Lankford. How many members of the tribe that live 
locally?
    Ms. Douville. That live locally? Approximately 30,000.
    Mr. Lankford. OK.
    Ms. Douville. For our tribe.
    But one thing that is highly pronounced on our reservation 
is that our unemployment rate is above 85 percent. So a 
majority of our people are unemployed. A lot of them are trying 
to be self-employed with the arts and crafts and the resources 
that we do have and the talents that they do have to try to get 
some type of business off the ground. Yet, still it is hard.
    Mr. Lankford. Sure. Obviously, we are scratching the 
surface. This is an initial hearing, and that is what this is, 
is fact-finding and hearing and to initiate the process and 
then to disburse this to other committees that are engaged with 
directly on it. You have identified multiple areas, both 
written and orally, on it. If there is one area to look at and 
say this one has to be resolved first, could you identify one 
to say this is the key that has to be resolved first from the 
Federal Government side, to make sure that we are pulling back 
any impediment to job growth within any of these tribal areas?
    Ms. Mittal. I will go first.
    I think the land-in-trust issue has to be resolved. Because 
until the tribes have a secure land base, they cannot undertake 
the type of activities that the two tribal members have talked 
about. They cannot conduct grazing, they cannot conduct 
forestry, they cannot conduct business or gaming activities. 
They need to have a secure land base.
    And until this uncertainty that the Carcieri decision has 
created is resolved, what we are concerned about is that more 
and more tribes are going to come to Congress looking for 
legislative solutions to this problem, rather than going 
through the BIA application process.
    Mr. Lankford. How do you see that being resolved? Is there 
something that you look and say this is going to have to be 
resolved here?
    Ms. Mittal. I think there could be legislative solutions. 
There could be court decisions that help resolve it. But there 
are lots of different ways it can be resolved. It is a 
definitional issue. We need to know what exactly does it mean 
by Federal jurisdiction in 1934. So that could be resolved 
either in the courts or by Congress.
    Mr. Lankford. Well, the courts are down the streets, so we 
will have to resolve it with legislative solutions here.
    So I appreciate your testimony and your time, and other 
folks that are here, and would be very pleased to be able to 
receive, if you have additional comments and thoughts that you 
may have that you want to be able to submit to Congress for us 
to disperse to the other areas, you have 7 days to be able to 
get those things back to us. So as things come up, we will be 
very pleased to be able to contact you with followup questions 
as they come up from there.
    I am very grateful for your time, and I apologize that we 
had a vote right in the middle of it and much delayed the 
process we were going with.
    Unless there are additional thoughts and comments on it, 
this hearing is adjourned.
    [Whereupon, at 4:12 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
